16. JOINT ACCOUNTS — If this is a joint account, each of
you will be individually and jointly responsible for paying
all amounts owed under this Agreement. This means that
SEFCU can require any one of you individually to repay the
entire amount owed under this Agreement. Each of you
authorizes the other(s) to make transactions on the account
individually. Any one of you may terminate the account and
the termination will be effective as to all of you.
17. EFFECT OF AGREEMENT — This Agreement is the
contract which applies to all transactions on your account
even though the sales, cash advances, credit or other slips
you sign or receive may contain different terms.
18. SEVERABILITY AND FINAL EXPRESSION — This
Agreement is the final expression of the terms and conditions
of your account. This written Agreement may not be
contradicted by evidence of any alleged verbal Agreement.
Should any part of this Agreement be found to be invalid or
unenforceable, all other parts of this Agreement shall remain
in effect and fully enforceable to the fullest extent possible
under this Agreement.
19. ILLEGAL TRANSACTIONS PROHIBITED — You agree
that you will not use your card for any transaction, including
any type of electronic gambling transaction through the
Internet, that is illegal under applicable federal, state, or local
law.
Even if you use your card for an illegal transaction, you
will be responsible for all amounts and charges incurred in
connection with the transaction. This paragraph shall not be
interpreted as permitting or authorizing any transaction that
is illegal.
20. APPLICABLE LAW — The terms and enforcement of this
Agreement shall be governed by federal law and the law of
New York.
21. ENFORCING THIS AGREEMENT — We can delay in
enforcing or fail to enforce any of our rights under this
Agreement without losing them.
22. COLLECTION COSTS — If we refer collection of your
account to a lawyer who is not our salaried employee, you
are liable for any reasonable attorney’s fees we incur, plus the
costs and expenses of any legal action, as further disclosed
on this Agreement, or to the extent allowed by law.
23. ASSIGNMENT — We may assign any or all of our rights
and obligations under this Agreement to a third party.
24. CALIFORNIA RESIDENTS — A married applicant may
apply for a separate account. Applicants: 1) may, after credit
approval, use the credit card account up to its credit limit;
2) may be liable for amounts extended under the plan to any
joint applicant. As required by law, you are hereby notified
that a negative credit report reflecting on your credit record
may be submitted to a credit reporting agency if you fail to
fulfill the terms of your credit obligations.

25. FLORIDA RESIDENTS — You (borrower) agree that,
should we obtain a judgment against you, a portion of your
disposable earnings may be attached or garnished (paid to
us by your employer), as provided by Florida and Federal
law.
26. MISSOURI RESIDENTS — Verbal Agreements or
commitments to loan money, extend credit or to forbear
from enforcing repayment of a debt including promises to
extend or renew such debt are not enforceable. To protect
you (borrower(s)) and us (creditor) from misunderstanding
or disappointment, any Agreements we reach covering
such matters are contained in this writing, which is
the complete and exclusive statement of the Agreement
between us, except as we may later agree in writing to
modify it.
27. MARYLAND RESIDENTS — To the extent, if any, that
Maryland law applies to your account, we elect to offer your
card account pursuant to Title 12, Subtitle 9 of the Maryland
Commercial Law Article.
28. NEW YORK RESIDENTS — We may obtain a credit report
in connection with this account, including for any review,
modification, renewal or collections associated with this
account. Upon your request, you will be informed whether
such report was requested and, if so, the name and address
of the consumer reporting agency furnishing the report. New
York residents may contact the New York State Banking
Department at (800) 342-3736 or www.dfs.ny.gov to obtain
a comparative listing of credit card rates, fees and grace
periods.
29. OHIO RESIDENTS — The Ohio laws against discrimination
require that all creditors make credit equally available to all
creditworthy customers and that credit reporting agencies
maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers
compliance with this law.
30. SOUTH DAKOTA RESIDENTS — If you believe there have
been any improprieties in making this loan or in the lender’s
loan practices, you may contact the South Dakota Division of
Banking at 1601 N. Harrison Ave, Suite 1, Pierre, SD 57501,
or by phone at (605) 773-3421.
31. WISCONSIN RESIDENTS — If you are married, please
contact us immediately upon receipt of this Agreement at
the address or phone number listed on this Agreement and
provide us with the name and address of your spouse. We
are required to inform your spouse that we have opened an
account for you.
32. NOTICE TO UTAH BORROWERS — This written
Agreement is a final expression of the Agreement between you
and SEFCU. This written Agreement may not be contradicted
by evidence of any verbal Agreement. As required by law, you

Page 9

Page 10

(continued)

(continued)

are hereby notified that a negative credit report reflecting on
your credit record may be submitted to a credit reporting
agency if you fail to fulfill the terms of your credit obligations.
33. THE FOLLOWING IS REQUIRED BY VERMONT LAW
— NOTICE TO CO-SIGNER — YOUR SIGNATURE ON
THIS NOTE MEANS THAT YOU ARE EQUALLY LIABLE FOR
REPAYMENT OF THIS LOAN. IF THE BORROWER DOES
NOT PAY, THE LENDER HAS A LEGAL RIGHT TO COLLECT
FROM YOU.
MASTERCARD IS A REGISTERED TRADEMARK,
AND THE CIRCLES DESIGN IS A TRADEMARK OF
MASTERCARD INTERNATIONAL INCORPORATED.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Customer Service
PO Box 31535
Tampa, FL 33631
In your letter, give us the following information:
- Account information: Your name and account number.
-	Dollar amount: The dollar amount of the suspected
error.
-	Description of problem: If you think there is an error on
your bill, describe what you believe is wrong and why
you believe it is a mistake.
You must contact us:
-	
Within 60 days after the error appeared on your
statement.
-	
At least three business days before an automated
payment is scheduled, if you want to stop payment on
the amount you think is wrong.
You must notify us of any potential errors in writing. You
may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the amount in
question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the
bill is correct.

Page 11

(continued)

While we investigate whether or not there has been an error:
-	We cannot try to collect the amount in question, or
report you as delinquent on that amount.
-	The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
-	While you do not have to pay the amount in question,
you are responsible for the remainder of your balance.
-	We can apply any unpaid amount against your credit
limit.
After we finish our investigation, one of two things will
happen:
- If we made a mistake: You will not have to pay the
amount in question or any interest or other fees related
to that amount.
- If we do not believe there was a mistake: You will have
to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the
amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those
organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have
to pay the first $50 of the amount you question even if your
bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card, and you have tried
in good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address,
and the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you, or
if we own the company that sold you the goods or
services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your credit card account do
not qualify.
3. You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at:
Customer Service
PO Box 31535
Tampa, FL 33631
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as
delinquent.

Page 12

Page 13

(continued)

Patroon Creek Corporate Center
700 Patroon Creek Blvd.
Albany, NY 12206-1067
800-727-3328
www.sefcu.com

CONSUMER CREDIT
CARD AGREEMENT
AND DISCLOSURE
This Consumer Credit Card Agreement and Disclosure
together with the Account Opening Disclosure and any other
account opening documents or any subsequent documents
provided to you related to this account (hereinafter collectively
referred to as “Agreement”) govern the terms and conditions
of this Account. “We,” “us,” “our” and “ours” and “credit
union” refers to SEFCU with which this Agreement is made.
“You,” “your,” and “yours” refers to each applicant and
co-applicant for the account; any person responsible for
paying the account; and anyone you authorize to use, access
or service the account. “Card” means the Mastercard credit
card and any other access devices, duplicates, renewals, or
substitutions, including convenience checks, SEFCU issues
to you. “Account” means the line of credit established by this
Agreement and includes your card.

© CUNA Mutual Group 1991, 2006, 09,
10, 12, 14, 16 All Rights Reserved

Page 14

03100017MXC322-C-1042720

SECURITY INTEREST
You grant SEFCU a security interest under the Uniform
Commercial Code and under any common law rights SEFCU
may have in any goods you purchase.
If you give SEFCU a specific pledge of shares by signing a
separate Share Pledge Agreement Mastercard Credit Card,
your pledged shares will secure your account. You may not
withdraw amounts that have been specifically pledged to
secure your account until SEFCU agrees to release all or
part of the pledged amount.
You grant us a security interest in all individual and joint
share and/or deposit accounts you have with us now and
in the future to secure your credit card account. Shares
and deposits in an IRA or any other account that would
lose special tax treatment under state or federal law if
given as security are not subject to the security interest
you have given in your shares and deposits. You may
withdraw these other shares unless you are in default.
When you are in default, you authorize us to apply the
balance in these accounts to any amounts due. For
example, if you have an unpaid credit card balance, you
agree we may use funds in your account(s) to pay any or
all of the unpaid balance. You acknowledge and agree
that your pledge does not apply during any periods when
Page 1

(continued)

you are a covered borrower under the Military Lending Act.
For clarity, you will not be deemed a covered borrower,
and your pledge will apply, if: (i) you established
your credit card account when you were not a covered
borrower; or (ii) you cease to be a covered borrower.
Unless otherwise prohibited by federal and/or state law,
collateral securing other loans you have with SEFCU may
also secure this loan, except that a dwelling will never be
considered as security for this account, notwithstanding
anything to the contrary in any other Agreement.
1. USING YOUR ACCOUNT — By using the account or
keeping the card, you agree to the terms of this Agreement.
You agree to use your account in accordance with this
Agreement. Your account must only be used for lawful
transactions. You may use your card to make purchases
from merchants and others who accept your card. The credit
union is not responsible for the refusal of any merchant or
financial institution to honor your card. If you wish to pay
for goods or services over the Internet, you may be required
to provide card number security information before you
will be permitted to complete the transaction. In addition,
you may obtain cash advances from the credit union, from
other financial institutions that accept your card, and from
some automated teller machines (ATMs). (Not all ATMs
accept your card.) Cash advances are limited to 20% of your
established credit line, up to the amount of your available
balance. If the credit union authorizes ATM transactions with
your card, it will issue you a personal identification number
(PIN). To obtain cash advances from an ATM, you must use
the PIN issued to you for use with your card. You agree that
you will not use your card for any transaction that is illegal
under applicable federal, state, or local law. Even if you use
your card for an illegal transaction, you will be responsible
for all amounts and charges incurred in connection with the
transaction. If you are permitted to obtain cash advances
on your account, you may also use your card to purchase
instruments and engage in transactions that we consider the
equivalent of cash. Such transactions will be posted to your
account as cash advances and include, but are not limited to,
wire transfers and money orders. This paragraph shall not be
interpreted as permitting or authorizing any transaction that
is illegal.
2. CREDIT LIMIT — We may establish a credit limit as part
of this Agreement, which you promise not to exceed. If you
exceed the credit limit, you promise to repay immediately the
amount which exceeds the credit limit, including amounts
due to finance charges, fees or other charges. You may
request a credit limit increase on your account only by a
method acceptable to SEFCU. We may increase or decrease
your credit limit, refuse to make an advance and/or terminate
your account at any time for any reason permitted by law.

Page 2

(continued)

3. CONVENIENCE CHECKS — We may, from time to time,
issue convenience checks to you that may be drawn on your
account. Convenience checks may not be used to make a
payment on your account. If you use a convenience check, it
will be posted to your account as a cash advance. We reserve
the right to refuse to pay a convenience check drawn on your
account for any reason and such refusal shall not constitute
wrongful dishonor. You may request that we stop the
payment of a convenience check drawn on your account. You
agree to pay any fee as identified in this Agreement imposed
to stop a payment on a convenience check issued on your
account. You may make a stop payment request verbally,
if permitted, or in writing. Your request must be made with
sufficient time in advance of the presentment of the check for
payment to give us a reasonable opportunity to act on your
request. In addition, your request must accurately describe
the check including the exact account number, the payee, any
check number that may be applicable, and the exact amount
of the check. If permitted, you may make a stop payment
request verbally but such a request will expire after fourteen
(14) days unless you confirm your request in writing within
that time. Written stop payment orders are effective only for
six (6) months and may be renewed for additional six (6)
month periods by requesting in writing that the stop payment
order be renewed. We are not required to notify you when a
stop payment order expires.
If we re-credit your account after paying a check over a valid
and timely stop payment order, you agree to sign a statement
describing the dispute with the payee, to assign to us all of
your rights against the payee or other holders of the check
and to assist us in any legal action.
You agree to indemnify and hold us harmless from all costs
and expenses, including attorney’s fees, damages, or claims,
related to our honoring your stop payment request or in
failing to stop payment of an item as a result of incorrect
information provided to us or the giving of inadequate time
to act upon a stop payment request. Note: A convenience
check is not a check as that term is defined under the Uniform
Commercial Code. It is an advance from your credit card
account with us and your stop payment rights are provided
under this Agreement with us.
4. REPAYMENT — You promise to repay all amounts you
owe under this Agreement. Your promise to repay includes
all transactions made to your account by you or anyone you
authorize to use your account as well as all interest charges
and fees. All payments must be made in U.S. dollars and, if
made by a negotiable instrument such as a check or money
order, must be in a form acceptable to us and drawn on a
U.S. financial institution.
For each billing period, you must pay at least the Minimum
Payment Due by the Payment Due Date indicated on your
statement.

The Minimum Payment Due is 3.00% of your total New
Balance, or $25.00, whichever is greater, plus any amount
past due and any amount by which you have exceeded your
applicable credit limit. If your total New Balance is less than
$25.00, then your Minimum Payment Due is the amount of
the total New Balance.
You may pay more frequently, pay more than the Minimum
Payment Due or pay the total New Balance in full.
If you make extra or larger payments, you are still required
to make at least the Minimum Payment Due each month your
account has a balance (other than a credit balance). SEFCU
may delay replenishing your credit limit until the date the
payment is posted or we confirm the payment has cleared.
Your payment of the required Minimum Payment Due
may be applied to what you owe SEFCU in any manner
we choose, as permitted by applicable law. If you make a
payment in excess of the required Minimum Payment Due,
SEFCU will allocate the excess amount first to the balance
with the highest annual percentage rate (“APR”) and any
remaining portion to the other balances in descending order
based on applicable APR, unless otherwise prescribed by
applicable law. We may accept checks marked “payment
in full” or with words of similar effect without losing any of
our rights to collect the full balance of your account with us.
5. INTEREST AND FINANCE CHARGES — We will
begin charging you interest on purchases on the date the
transaction is posted to your account. We will begin charging
you interest on cash advances and balance transfers on the
date of the transaction or the first day of the billing cycle in
which the transaction is posted to your account, whichever
is later (transaction date). However, we will not charge you
any interest on new purchases if your account had a zero or
credit balance at the beginning of that billing cycle, or you
paid the entire new balance on the previous cycle’s billing
statement by the Payment Due Date of that statement. To
avoid any additional finance charge on the balance of your
account, you must pay the entire new balance on the billing
statement by the Payment Due Date of that statement.
How We Calculate Your Balance:
Interest charges on your account are calculated separately
for purchases, balance transfers and cash advances
(“Transaction Type”). We figure the interest charge for
each Transaction Type by applying the periodic rate to each
corresponding “average daily balance.” To get the “average
daily balance” for a Transaction Type we take the beginning
balance for that Transaction Type each day, add any new
transactions of that type, and subtract any unpaid interest
or other finance charges and any applicable payments or
credits. This gives us the daily balance for each Transaction
Type. Then, for each Transaction Type, we add up all the
daily balances for the billing cycle and divide each total by
the number of days in the billing cycle. This gives us the
“average daily balance” for each Transaction Type.

The periodic rates applicable to purchases, cash advances,
and balance transfers are disclosed on the Disclosure that
accompanies this Agreement. Any penalty rate that may be
imposed for failing to make a payment by the payment due
date is also disclosed on the Disclosure. Any rate change will
be made pursuant to applicable law. If the rate for your account
is variable, as indicated on the accompanying Disclosure, the
rate charged on purchases, cash advances, balance transfers
and any penalty rate will vary periodically as disclosed in
the Disclosure accompanying this Agreement. The initial
rate on your account for certain types of transactions may
be an introductory discounted rate (Introductory Rate) that
is lower than the rate that would ordinarily apply for that
type of transaction. If an Introductory Rate applies to your
account, the rates and the period of time it will be effective
is shown on the Disclosure accompanying this Agreement.
After the Introductory Rate period expires, the periodic rate
will automatically increase to the rates that would ordinarily
apply for that type of transaction based on the terms of this
Agreement.
6. FEES — In addition to the periodic rate, additional fees
may be imposed on your account. If applicable to your
account, the fee amounts and explanations are disclosed
on the Account Opening Disclosure accompanying this
Agreement.
7. FOREIGN TRANSACTIONS — If You make a purchase or
obtain a cash advance in a foreign currency, the transaction
will be debited from Your Account in U.S. dollars. Mastercard
will convert the transaction into U.S. dollars depending on
whether You complete the transaction with a Mastercard
or if the transaction is processed by a network operated
or affiliated with Mastercard. For transactions processed
through Mastercard, the exchange rate used to convert
foreign currency transactions to U.S. dollars is either
a government-mandated exchange rate or a wholesale
exchange rate and is selected by Mastercard. The rate
Mastercard uses for a particular transaction is the rate
Mastercard selects for the applicable currency on the day
the transaction is processed. The exchange rate used to
convert the transaction may differ from the rate Mastercard
receives and may differ from the rate applicable on the date
the transaction occurred or was posted to Your Account.
8. AUTHORIZATIONS — We do not guarantee authorization
of a transaction, either by us or by a third party, even if you
have sufficient credit available. You agree that we will not
be liable for failing to give an authorization. We also reserve
the right to limit the number of transactions that may be
approved in one day. We reserve the right to deny certain
transactions for any reason and at our sole discretion,
including for default, suspected fraudulent or unlawful
activity, internet gambling or any indication of increased
risk related to the transaction or the account. You agree that

we have no requirement to notify you of the specific reason
we denied a transaction. If we detect unusual or suspicious
activity, we may suspend your credit privileges until we can
verify the activity, or we may close the account.
9. INFORMATION
UPDATING
SERVICE
AND
AUTHORIZATIONS — If you have authorized a merchant
to bill charges to your card on a recurring basis, it is your
responsibility to notify the merchant in the event your card is
replaced, your account information (such as card number or
expiration date) changes, or your account is closed. However,
if your card is replaced or your account information changes,
you authorize us, without obligation on our part, to provide
the updated account information to the merchant in order to
permit the merchant to bill recurring charges to your card.
You authorize us to apply such recurring charges to your card
until you notify us that you have revoked authorization for the
charges to your card.
Your card is automatically enrolled in an information
updating service. Through this service, your updated account
information (such as card number or expiration date) may be
shared with participating merchants to facilitate continued
recurring charges. Updates are not guaranteed before your
next payment to a merchant is due. You are responsible for
making direct payment until recurring charges resume. To
revoke your authorization allowing us to provide updated
account information to a merchant, please contact us.
10. PREAUTHORIZED CHARGES — We may suspend
preauthorized recurring charges with merchants, if, for
example, your card is lost or stolen, you default, or we change
your account for any reason. If preauthorized recurring
charges are suspended, you are responsible for making direct
payment for such charges until you contact the merchant to
reinstate recurring charges.
11. DEFAULT — You will be in default under this Agreement if
you fail to pay the Minimum Payment Due by its Payment Due
Date; pay by a check or similar instrument that is not honored
or that we must return because it cannot be processed; pay
by automatic debit that is returned unpaid; make any false
or misleading statements in any credit application or credit
update; file for bankruptcy; or die. You will also be in default
if you fail to comply with the terms of this Agreement or any
other Agreement you have with us. You will also be in default
if something happens that the credit union believes may
substantially reduce your ability to repay what you owe.
When you are in default, the credit union has the right to
demand immediate payment of your full account balance
without giving you notice. If immediate payment is demanded,
you agree to continue paying finance charges at the periodic
rate charged before default, until what you owe has been paid,
and any shares that were given as security for your account
may be applied towards what you owe.

If you default, we may close your account and require you
to pay any unpaid balance immediately, subject to applicable
law. In this Agreement and on your Credit Card Application,
you gave us a security interest in all individual or joint share
and/or deposit accounts with SEFCU and authorized us, if
you defaulted, to apply the balance in these accounts to any
amounts due. You agree we may rely on your agreement and
authorization to, upon your default, apply any balance to any
amounts due on your account.
12. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN
CARD NOTIFICATION — If you notice the loss or theft of
your credit card or a possible unauthorized use of your card,
you should write to us immediately at Customer Service, PO
Box 31535, Tampa, FL 33631. World cardholders can call
(855) 594-3246 to report the loss, theft, or unauthorized
use of your card as well as for customer service. (If you are
outside the United States, call collect at (727) 227-1428.)
Other cardholders can call (866) 839-3485 to report the
loss, theft, or unauthorized use of your card. (If you are
outside the United States, call collect at (727) 570-4881.)
You will not be liable for any unauthorized use that occurs
after you notify us of the loss, theft or possible unauthorized
use. You may, however, be liable for unauthorized use that
occurs before your notice to us. However, if you exercise
reasonable care in safeguarding your card from risk of loss
or theft and, upon discovering the loss or theft promptly
report the loss or theft to us, you will not be liable for any
unauthorized transactions. In any case, your liability for
unauthorized transactions will not exceed $50.
13. CHANGING OR TERMINATING YOUR ACCOUNT — As
permitted by law, SEFCU may change the terms of this
Agreement and any attached Disclosure from time to time.
Notice of any change will be given in accordance with
applicable law. To the extent permitted by law, changes to
the Agreement may apply to your existing account balance as
well as to future transactions. You are also responsible for all
transactions posted on your account after termination, unless
the transactions were unauthorized. If this is a joint account,
the paragraph on JOINT ACCOUNTS of this Agreement also
applies to termination of the account.
Arizona, California, Idaho, Louisiana, New Mexico, Nevada,
Texas, Washington, and Wisconsin Residents. Either you,
your spouse or SEFCU may terminate this Agreement at any
time SEFCU may terminate this Agreement upon reevaluation
of your creditworthiness, upon failure to satisfy the terms
of this Agreement, or by our option with good cause, as
permitted by law. You may terminate this Agreement at any
time by giving us written notice at our address listed on
this Agreement. However, termination by you, your spouse
or SEFCU will not affect your obligation to pay the account
balance plus any finance and other charges you or your
spouse owe under this Agreement. Your obligation to pay
the account balance plus any finance and other charges you
owe under this Agreement are subject to all applicable laws

and regulations regarding repayment requirements. The card
or cards you receive remain the property of SEFCU and you
must recover and surrender to SEFCU all cards upon request
or upon termination of this Agreement whether by you or
SEFCU.
Residents of all other states. Either you or SEFCU may
terminate this Agreement at any time. SEFCU may terminate
this Agreement upon reevaluation of your creditworthiness,
upon failure to satisfy the terms of this Agreement, or by
our option with good cause, as permitted by law. You may
terminate this Agreement at any time by giving us written
notice at our address listed on this Agreement. However,
termination by you or SEFCU will not affect your obligation to
pay the account balance plus any finance and other charges
you owe under this Agreement. Your obligation to pay the
account balance plus any finance and other charges you owe
under this Agreement are subject to all applicable laws and
regulations regarding repayment requirements. The card or
cards you receive remain the property of SEFCU and you
must recover and surrender to SEFCU all cards upon request
or upon termination of this Agreement whether by you or
SEFCU.
14. AUTHORIZED USERS — Upon your request, we may issue
additional cards for authorized users that you designate. You
must notify us in writing of any termination of an authorized
user’s right to access your account. Your notice must include
the name of the authorized user and your account number
and/or any subaccount number issued to the authorized user
along with the authorized user’s card and any convenience
checks issued to the authorized user. If you cannot return
the authorized user’s card or convenience checks and if you
request your account to be closed, we will close your account
and you may apply for a new account. Alternatively, we may,
at our sole discretion, issue you a new account number and
a new card.
15. CREDIT REPORTS AND NOTICE OF NEGATIVE
INFORMATION — You authorize SEFCU to obtain credit
reports and any other information we may need to verify
your identity and use of the account when opening your
account and for any update, increase, renewal, extension,
collection or review of your account. You authorize SEFCU
to disclose information regarding your account to credit
bureaus, merchants and creditors who inquire about your
credit standing. We may report information about your
account to credit bureaus. Late payments, missed payments,
or other defaults on your account may be reflected on your
credit report. If your account is eligible for emergency cash
and/or emergency card services, and you request such
services, you agree that we may provide personal information
about you and your account that is necessary to provide you
with the requested services(s).

Page 3

Page 4

Page 5

Page 6

Page 7

Page 8

(continued)

(continued)

(continued)

(continued)

(continued)

(continued)

